                                                                   Issue Date
                                                                           April 10, 2007
                                                                   Audit Report Number
                                                                           2007-LA-1009




TO:         William Vasquez, Director, Los Angeles Office of Community Planning and
              Development, 9DD



FROM:       Joan S. Hobbs, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: The City of Chula Vista, California, Generally Administered Its HOME
           Investment Partnerships Program in Accordance with HUD Requirements.



                                    HIGHLIGHTS

 What We Audited and Why

      We audited the City of Chula Vista (City) in response to an auditability survey and risk
      analysis completed by our office. The analysis showed that the City fell into a high-risk
      category, based on the fact that the City spent more than 50 percent of its grant funds on
      rental activities and its staffing level was inadequate. Additionally, HUD’s 2005 on-site
      monitoring review of the City reported nine findings and one concern. The most
      significant findings were related to the untimely commitment of funds, untimely
      expenditure of funds, and lack of documentation to show that match funds had been
      provided as required.

      Our audit objective was to determine whether the City administered its HOME
      Investment Partnerships Program (HOME) in accordance with HUD requirements. We
      wanted to determine whether the City’s (1) internal controls and financial management
      system were adequate, (2) expenditures were eligible and adequately supported, (3)
      matching funds were eligible and supported, and (4) monitoring and housing quality
      standards were adequate.
What We Found


     All findings identified in the HUD monitoring report had been addressed and corrected
     by the City, and the City was generally administering its HOME program in accordance
     with HUD requirements.

Auditee’s Response


     We provided the auditee the final report on April 10, 2007.




                                             2
                           TABLE OF CONTENTS

Background and Objectives                                                      4

Results of Audit
   Finding 1: The City Generally Administered Its HOME Program in Accordance   5
   with HUD Requirements


Scope and Methodology                                                          7

Internal Controls                                                              8




                                           3
                     BACKGROUND AND OBJECTIVES

The HOME Investment Partnerships Program (HOME) is authorized under Title II of the
Cranston-Gonzalez National Affordable Housing Act. The program is designed exclusively to
create affordable housing for low-income households. Each year, approximately $2 billion is
allocated among the states and hundreds of localities nationwide. Under the program, the U.S.
Department of Housing and Urban Development (HUD) allocates funds by formula among
eligible state and local governments to strengthen public-private partnerships and to expand the
supply of decent, safe, sanitary, and affordable housing, with primary attention to rental housing
for very low-income and low-income families. Generally, HOME funds must be matched by
nonfederal resources. State and local governments that become participating jurisdictions may
use HOME funds to carry out multiyear housing strategies through acquisition, rehabilitation,
and new construction of housing and tenant-based rental assistance. Participating jurisdictions
may provide assistance in a number of eligible forms, including loans, advances, equity
investments, interest subsidies, and other forms of investment that HUD approves. Additionally,
up to 10 percent of the participating jurisdiction’s annual allocation may be used for program
planning and administration.

The City of Chula Vista’s (City) Community Development Department is responsible for a wide
range of community revitalization and economic development projects, programs, and activities
implemented through four major divisions, which include Redevelopment, Housing, Economic
Development, and Planning and Environmental Services.

The City’s Housing Division is responsible for implementing a variety of proactive and
innovative affordable housing projects and programs as well as managing the Community
Development Block Grant and HOME programs. The division staffs the Housing Advisory
Commission and Mobile Home Rent Review Commission and acts as liaison to the Regional
Housing Task Force, Fair Housing Resource Board, Federal Emergency Management Agency
Board, Regional Community Development Block Grant Administrator’s Board, and San Diego
Housing Federation.




                                                4
                                RESULTS OF AUDIT

Finding 1: The City Generally Administered Its HOME Program in
Accordance with HUD Requirements
The City generally administered its HOME program in accordance with HUD requirements.
Specifically, the City’s (1) internal controls and financial management system were adequate, (2)
expenditures were eligible and adequately supported, (3) matching funds were eligible and
supported, and (4) monitoring and housing quality standards were adequate.



 The City’s Internal Controls
 and Financial Management
 System Were Adequate


       The City’s Accounting Department was a separate entity from the Community
       Development Department, which had an adequate segregation of duties regarding HOME
       funding approval and drawdown requests. All invoices submitted to the Community
       Development Department for reimbursement were reviewed by community development
       staff initially and then sent to the Accounting Department for additional review. The
       City’s accounting policies and procedures reasonably assured that program
       implementation was consistent with HUD laws and regulations. The City’s financial
       management/accounting software was adequate to account for all financial transactions
       made by the City related to its HOME program.

 Program Expenditures Were
 Eligible and Supported with
 Adequate Documentation


       We selected three of the City’s HOME-funded projects to determine the eligibility of the
       expenses. One project from each HOME program the City administered was selected for
       review. The three projects selected were from the following programs: (1) acquisition
       (first time home buyer program), (2) new construction (Seniors on Broadway), and (3)
       rehabilitation (Casa Nueva Vida I & II). We reviewed each project file in its entirety and
       found that all expenditures had appropriate supporting documentation to show that the
       expenses were eligible.




                                                5
Matching Funds Were Provided
as Required


     We reviewed all match documentation for fiscal years 2005 and 2006, which included the
     City’s match log that provided details on the total amount of HOME funding expended
     and the match liability incurred for each fiscal year. The log showed that the City
     provided an amount of matching funds well above the liability incurred. We reconciled
     the City’s match log with HUD’s records to ensure that the City’s data were accurate.
     We also reviewed the City’s revenue and expenditure reports for fiscal years 2005 and
     2006, which showed the source (revenue) and application (disbursement) of the funding.
     We determined from our review of the match log and revenue/expenditure reports
     provided by the City that matching funds were provided as required and the source of the
     funding was from nonfederal funds.

Program Monitoring and
Housing Quality Standards
Were Adequate

     We assessed the City’s compliance with HUD’s monitoring and housing quality
     standards by interviewing pertinent personnel, reviewing supporting documentation, and
     conducting site visits to the projects in our sample. We determined that the City
     monitored all projects that were in progress and contracted out the monitoring of all
     completed projects. We reviewed monitoring reports of both the City and its contractor.
     All reports showed a sufficient amount of detail, which allowed us to determine that
     compliance monitoring was conducted and was an adequate assessment of each project’s
     compliance. In addition, we were able to verify that the City was in compliance with
     HUD’s housing quality standards by conducting site visits that included visual
     inspections of several occupied and vacant units. We determined that the City was in
     compliance with both its monitoring and housing quality standards.


Conclusion


     The City of Chula Vista generally administered its HOME program in accordance with
     HUD requirements.




                                            6
                         SCOPE AND METHODOLOGY

We conducted our audit work in the city of Chula Vista, California, and our audit generally
covered the period July 2004 through July 2006. We expanded our scope when necessary. Our
universe included those open, completed, and final draw projects with commitment dates that fell
within our audit scope. We selected the three largest funded projects from our universe that
expended funding on three different areas of the HOME program. The three projects were
authorized a total of $3,568,619 in funding and drew down a total of $3,132,497. HUD’s
Integrated Disbursement and Information System automatically draws down funds using a first-
in, first-out method, which caused funding to be drawn from the City’s oldest open grants.
Consequently, the draws made during our audit period were from the following HOME grants:

   •   M-98-MC-060505
   •   M-99-MC-060505
   •   M-00-MC-060505
   •   M-01-MC-060505

We reviewed the City’s policies and procedures related to accounting, monitoring, and internal
controls to find out whether the City was administering its grants in accordance with HUD
requirements and providing adequate oversight of its funding recipients. We also conducted site
visits to three project sites and reviewed accounting records and client files to find out what
services were provided and whether those services and the clients served were eligible to receive
HOME funds. More specifically, to accomplish the survey, we performed the following:

   •   Reviewed relevant HUD regulations and Office of Management and Budget circulars.
   •   Reviewed HUD’s Community Planning and Development monitoring report and project
       files associated with the City’s grants.
   •   Interviewed appropriate community planning and development personnel.
   •   Reviewed the City’s policies and procedures associated with its HOME program.
   •   Interviewed appropriate City personnel to obtain an understanding of its operations and
       internal controls.
   •   Reviewed the City’s revenue and expense reports and supporting documentation for the
       $3,132,497 drawn down.
   •   Reviewed the City’s match liability to determine whether the City provided the required
       match amounts from an eligible source of funding.
   •   Reviewed projects’ client files to verify eligibility to participate in the HOME program.

We performed the audit work between January 10 and March 16, 2007.

We conducted our audit in accordance with generally accepted government auditing standards
and included tests of management controls that we considered necessary.




                                                7
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.




 Relevant Internal Controls

       We determined the following internal controls were relevant to our audit objectives:

              •   Compliance with applicable laws, regulations, and provisions of program
                  agreements.
              •   Effectiveness and efficiency of program operations.
              •   Policies and procedures to ensure that grant expenditures were eligible and
                  adequately supported.
              •   Policies and procedures to ensure that financial management and record-
                  keeping systems were adequate.

       We assessed the relevant controls identified above.

       A significant weakness exists if management controls do not provide reasonable
       assurance that the process for planning, organizing, directing, and controlling program
       operations will meet the organization’s objectives.

 Significant Weaknesses


       We did not identify any significant weaknesses in the relevant controls identified above.




                                               8
